SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217)782-2035

Kevin T. Heard
Reg. No. 893804
DHS Treatment & Detention Facility
17019 County Farm Road
Rushville IL 62681

FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

May 26, 2021
In re:

People State of Illinois, respondent, v. Kevin T. Heard, petitioner.
Leave to appeal, Appellate Court, Fourth District.

127075
The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 06/30/2021.

Very truly yours

dM>
Clerk of the Supreme Court

STATE OF ILLINOIS
CLERK. OF THE COURT
(217)782-2586

appellate Court
FOURTH DISTRICT
201 W. MONROE STREET
SPRINGFIELD, IL 62704

RESEARCH DIRECTOR
(217)782-3528

March 4, 2021
R.E: People v. Heard, Kevin T.
General No.: 4-19-0228
Sangamon County
Case No.: 02CF665.

The Court today denied the petition for rehearing filed in the above entitled cause. The mandate
of this Court will issue 35 days from today unless a petition for leave to appeal is filed in the
Illinois Supreme Court.
If the decision is an opinion, it is hereby released today for publication.

Clerk of the Appellate Court
c:

David E. Mannchen
Kevin T. Heard

NOTICE

This Order was filed under
Supreme Court Rule 23 and is
not precedent except in the
limited circumstances allowed
under Rule 23(e)(1).

FILED

2021 IL App (4th) 190228-U
NO. 4-19-0228
IN THE APPELLATE COURT

February 17, 2021
Carla Bender
4,h District Appellate
Court, IL

OF ILLINOIS
FOURTH DISTRICT
THE PEOPLE OF THE STATE OF ILLINOIS,
Plaintiff-Appellee,
v.
KEVIN T. HEARD,
Defendant-Appellant.

)
)
)
)
)
)
)
)

Appeal from the
Circuit Court of
Sangamon County
No. 02CF665
Honorable
Rudolph M. Braud Jr.,
Judge Presiding.

JUSTICE HARRIS delivered the judgment of the court.
Presiding Justice Knecht and Justice Holder White concurred in the judgment.
ORDER

1 1

Held: The trial court did not err in dismissing defendant’s second petition for relief from
judgment (735 ILCS 5/2-1401 (West 2016)).

12

In January 2005, defendant, Kevin T. Heard, pleaded guilty to criminal sexual

assault (720 ILCS 5/12-13 (West 2000)). After his conviction, defendant pursued multiple forms
of relief, including relief from judgment pursuant to section 2-1401 of the Code of Civil Procedure
(735 ILCS 5/2-1401 (West 2016)), all of which the trial court dismissed. In 2019, defendant filed
a second section 2-1401 petition for relief from judgment, which the court dismissed. Defendant
appeals, arguing the court erred in dismissing his second section 2-1401 petition. We affirm.

13
14

I. BACKGROUND
On August 1, 2002, the State charged defendant with home invasion (720 ILCS

5/12 -11(a)(6) (West Supp. 2001)) and aggravated criminal sexual assault (720ILCS 5/12-14(a)(4)
(West 2000)), which the State later amended to criminal sexual assault (720 ILCS 5/12-13 (West
2000)).

15

At a status hearing on April 28, 2003, defense counsel requested, and was granted,

a continuance to “pursu[e] a DNA expert” to review certain of the State’

s evidence. At the next

several status hearings, defense counsel obtained additional continuances,

each time reporting a

delay was required to allow defendant’s retained expert to complete her review of the State’s
evidence. In November 2004, defense counsel finally reported defendant

was ready to proceed to

trial.

116

At a hearing on January 7, 2005, defendant entered a negotiated plea of guilty. In

exchange for defendant’s guilty plea to criminal sexual assault, the home invasion charge,
as well
as charges in another case, would be dismissed, and defendant would

receive a 10-year prison

sentence. The trial court accepted defendant’s plea and sentenced him in accordance with the
parties’ agreement.

If V

On March 15, 2012, defendant filed a petition for postconviction relief pursuant to

the Post-Conviction Hearing Act (725 ILCS 5/122-1
defendant claimed defense counsel provided ineffective

etseq. (West 2010)). In his petition,
assistance by ul[ying] to the [trial court]

concerning independent DNA analysis that he ‘never’ ordered to be completed.” The trial
court
advanced defendant’s petition to the second stage of postconviction proceedings, and the State
filed a motion to dismiss. The court later granted the State’s motion, finding defendant’s
allegations did not support a claim of ineffective assistance of counsel. On appeal, this court
affirmed, rejecting defendant’s sole contention that appointed counsel was required to comply with
the provisions of Illinois Supreme Court Rule 651 (c) (eff. Dec. 1, 1984) prior to her withdrawal as

-2-

defendant’s attorney. People v. Heard, 2014 IL App (4th) 120833, 8 N.E.3d 447.

18

In September 2014, defendant filed a motion for leave to file a successive

postconviction petition. In his proposed petition, defendant again alleged defense counsel provided
ineffective assistance by “lfying] to the [trial court] concerning independent DNA analysis that he
‘never’ ordered to be completed.” Subsequently, the trial court denied defendant
s motion for
leave, finding defendant lacked standing to file a postconviction petition because he was no longer
imprisoned. We affirmed the court’s denial of the motion. People v. Heard, No. 4-14-0899 (2017)
(unpublished summary order under Illinois Supreme Court Rule 23(c)).

. 1f9

On April 4, 2018, defendant filed a petition for relief from judgmenhpursuant to

section 2- 1401 of the Code of Civil Procedure (735 ILCS 5/2-1401 (West 2016)). In his petition,
defendant alleged “newly discovered evidence,” which had been “fraudulently concealed”

from

him, supported the claim of ineffective assistance of counsel he previously raised in his
postconviction petitions. Specifically, defendant alleged that in September 2016, he issued a
Freedom of Information Act (FOIA) (5 ILCS 140/1 etseq. (West 2016)) request to the office of
the Sangamon County Public Defender requesting “[a] copy of any document in [his defense
counsel’s] file of the independent DNA lab that [defense counsel] used to conduct tests of the DNA
evidence in [defendant’s case].” According to the petition, in response to his request, defendant
received a letter from the public defender’s office indicating their records of defendant ’s case did
not include any “notes or documentation in reference to an independent DNA laboratory retained
as a defense consultant.” The State later filed a motion to dismiss defendant’s petition, which the
trial court granted.
110

On February 14, 2019, defendant filed a second section 2-1401 petition for relief

from judgment, which was identical to his initial section 2-1401 petition. A month later, the trial

-3 -

court dismissed defendant’s petition, finding it was improper because “it [was] not filed within the
two year time limit after the entry of judgment” and “the doctrine of estoppel appliefd].”
IF 11
II 12
1113

This appeal followed.
II. ANALYSIS
On appeal, defendant argues the trial court erred in dismissing his second section

2-1401 petition for relief from judgment as untimely. We review the trial court’s dismissal of a
section 2-1401 petition de novo. People v. Vincent, 226 Ill. 2d 1, 18, 871 N.E.2d 17, 28 (2007).
H 14

Section 2-1401 of the Code of Civil Procedure “provides a statutory procedure

permitting vacatur of final judgments and orders after 30 days from their entry.” People v.
Coleman, 206 Ill. 2d 261, 288, 794 N.E.2d 275, 292 (2002) (citing 735 ILCS 5/2-1401(a) (West
1998)). Relief under section 2-1401 is predicated upon proof, by a preponderance of evidence , of
a defense or claim that would have precluded entry of the judgment in the original action and
diligence in both discovering the defense or claim and presenting the petition.” Vincent, 226 Ill.
2d at 7-8. The statute does not provide a defendant an indefinite opportunity to challenge the trial
court’s judgment however. “A section 2-1401 petition filed more than two years after the
challenged judgment cannot be considered absent a clear showing that the person seeking relief
was under a legal disability or duress or the grounds for relief were fraudulently concealed.” People
v. Pinkonsly, 207 Ill. 2d 555, 562, 802 N.E.2d 236, 241 (2003) (citing 735 ILCS 5/2-1401(c) (West
2002)).
1115

In the present case, defendant does not dispute that he failed to file his second

section 2-1401 petition within two years of the trial court’s 2005 judgment. Instead, he argues the
two-year limitation should be tolled because defe nse counsel “fraudulently concealed” his
own
failure to obtain an independent review of the State’s DNA evidence and defendant did not learn

-4-

of defense counsel’s failure until 2016 when he issued a FOIA request to the office of the
Sangamon County Public Defender. We find this argument is without merit.
116

“[Fraudulent concealment sufficient to toll the two-year limitation period of

[section 2-1401(c)] requires affirmative acts or representations designed to prevent discovery of
the cause of action or ground for relief.” (Internal quotation marks omitted.) Coleman, 206 Ill. 2d
at 290-91. In Coleman, our supreme court stated as follows:
To make a successful showing of fraudulent concealment, the defendant must
allege facts demonstrating that his opponent affirmatively attempted to prevent the
discovery of the purported grounds for relief and must offer factual allegations
demonstrating his good faith and reasonable diligence in trying to uncover such
matters before trial or within the limitations period.” (Internal quotation marks
omitted.) Id. at 290.

117

Here, defendant has failed to make a successful showing of fraudulent concealment.

Defendant does not identify any affirmative act or representation by his opponent which would
toll the two-year limitation period. The only actions defendant argues constituted fraudulent
concealment are those of defense counsel, whose actions cannot constitute fraudulent concealment
for purposes of tolling the section 2-1401 time limitation period. See People v. Baskin, 213 111.
App. 3d 477, 485, 572 N.E.2d 1067, 1072 (1991) (“Fraudulent concealment under section
2-1401(c) which will toll the two year limitation period contemplates affirmative actions by one s
opponent or by the court, not one’s own attorney.”). Moreover, as pointed out by the State, the
record demonstrates defendant knew of defense counsel’s alleged failure to secure DNA testing as
early as 2012, when he filed his first postconviction petition. Clearly, defendant was aware of the
DNA testing issue almost seven years prior to filing his second section 2-1401 petition, refuting

-5-

his claim of fraudulent concealment. Accordingly, defendant has failed to establish the two-year
limitation period should be tolled due to fraudulent concealment and the trial court’s order
dismissing defendant s second section 2-1401 petition as untimely was not error.
1118

Even assuming, arguendo, that defendant’s section 2-1401 petition was not

untimely, we would still affirm the trial court’s dismissal because defendant raised the same
allegations of ineffective assistance of counsel in prior proceedings. “Consistent with the strong
judicial policy favoring finality of judgments, our courts have held that a section 2-1401 petition
is not to be used as a device to relitigate issues already decided or to put in issue matters which
have previously been or could have been adjudicated.” (Internal quotation marks omitted.) Hirsch
v. Optima, Inc., 397 Ill. App. 3d 102, 110, 920 N.E.2d.547, 555-56 (2009); see also People v.
Haynes, 192 Ill. 2d 437, 461, 737 N.E.2d 169, 182 (2000) (“Points previously raised at trial and
other collateral proceedings cannot form the basis of a section 2-1401 petition for relief.”). The
ineffective assistance of counsel claim raised by defendant in his second section 2-1401 petition
is identical to the claim he raised in both of his unsuccessful postconviction petitions and his
unsuccessful, initial section 2-1401 petition. Critically, the trial court considered defendant’s
ineffective assistance of counsel claim in defendant’s initial postconviction petition and rejected it
on its merits. Therefore, because defendant was not permitted to relitigate the issue, the court’s
dismissal of his second section 2-1401 petition was proper.
H 19

III. CONCLUSION

1f 20

For the reasons stated, we affirm the trial court’s judgment.

U 21

Affirmed.

-6-

